<html>
<title> - NOMINATIONS OF JAMES O'GARA, TO BE DEPUTY DIRECTOR FOR SUPPLY REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY; JULIE MYERS, TO BE ASSISTANT SECRETARY FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY; AND EMILIO GONZALEZ, TO BE DIRECTOR OF THE BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 109-390]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-390


 CONFIRMATION HEARING ON THE NOMINATIONS OF JAMES O'GARA, TO BE DEPUTY 
DIRECTOR FOR SUPPLY REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY; 
  JULIE MYERS, TO BE ASSISTANT SECRETARY FOR IMMIGRATION AND CUSTOMS 
 ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY; AND EMILIO GONZALEZ, TO 
  BE DIRECTOR OF THE BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, 
                    DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2005

                               __________

                          Serial No. J-109-41

                               __________

         Printed for the use of the Committee on the Judiciary



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
27-442 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................   216
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   218

                               PRESENTERS

Martinez, Hon. Mel, a U.S. Senator from the State of Florida 
  presenting Emilio Gonzalez, Nominee to be Director of the 
  Bureau of Citizenship and Immigration Services.................     2
Ros-Lehtinen, Hon. Ileana, a Representative in Congress from the 
  State of Florida presenting Emilio Gonzalez, Nominee to be 
  Director of the Bureau of Citizenship and Immigration Services.     3

                       STATEMENTS OF THE NOMINEES

Gonzalez, Emilio, Nominee to be Director of the Bureau of 
  Citizenship and Immigration Services, Department of Homeland 
  Security.......................................................    53
    Questionnaire................................................    54
Myers, Julie, Nominee to be Assistant Secretary for Immigration 
  and Customs Enforcement, Department of Homeland Security.......    19
    Questionnaire................................................    20
O'Gara, James, Nominee to be Deputy Director for Supply 
  Reduction, Office of National Drug Control Policy..............     5
    Questionnaire................................................     6

                         QUESTIONS AND ANSWERS

Responses of James O'Gara to questions submitted by Senators 
  Biden, Grassley, Kennedy and Leahy.............................    75
Responses of Julie Myers to questions submitted by Senators 
  Grassley, Kennedy, Kyl, Leahy and Schumer......................   167
Responses of Emilio Gonzalez to questions submitted by Senator 
  Kennedy........................................................   214

                       SUBMISSIONS FOR THE RECORD

Roberts, Hon. Pat, a U.S. Senator from the State of Kansas, 
  statement in support of Julie Myers, Nominee to be Assistant 
  Secretary for Immigration and Customs Enforcement..............   225
Ros-Lehtinen, Hon. Ileana, a Representative in Congress from the 
  State of Florida in support of Emilio Gonzalez, Nominee to be 
  Director of the Bureau of Citizenship and Immigration Services, 
  prepared statement.............................................   226

 
     NOMINATIONS OF JAMES O'GARA, TO BE DEPUTY DIRECTOR FOR SUPPLY 
 REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY; JULIE MYERS, TO BE 
ASSISTANT SECRETARY FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT 
OF HOMELAND SECURITY; AND EMILIO GONZALEZ, TO BE DIRECTOR OF THE BUREAU 
    OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND 
                                SECURITY

                              ----------                              


                       TUESDAY, OCTOBER 18, 2005

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m., in 
room-226, Dirksen Senate Office Building, Hon. John Cornyn 
presiding.
    Present: Senators Cornyn, Coburn, and Leahy.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. [Presiding] The Committee will come to 
order.
    I want to thank Chairman Specter for scheduling today's 
hearing. This hearing involves three very important positions, 
and this is the first step to getting those positions filled. 
If confirmed, each of these nominess will fill a vital position 
in our Government, and I hope we can get these nominations 
voted out of the Committee in the near term and to the Senate 
floor as soon as possible.
    The Homeland Security nominations are particularly relevant 
in light of the hearing held this morning by Chairman Specter, 
which concerned the issue of comprehensive immigration reform. 
And of course the Secretary of the Department of Homeland 
Security and the Secretary of the Department of Labor, 
Secretary Chao, testified. At that hearing we heard about the 
need to restore integrity and the rule of law to the U.S. 
immigration system. And while there is a growing consensus that 
the system is badly broken, there is not yet a consensus on the 
path ahead.
    What we can all agree upon is that if these nominees are 
confirmed, that they will play critical roles in implementing 
the reforms that Congress adopts and in evaluating any proposal 
from the standpoint of the resources and capabilities of the 
Department to respond to Congress's mandate.
    With that background, I look forward to discussing with 
each of the nominees the challenges that they would face as 
well as the role that immigration reform will play in either 
hurting or helping your respective agencies' abilities to 
accomplish their missions.
    What I want to do is say a few words about Ms. Myers by way 
of introduction, then I would like to recognize my colleagues, 
Senator Martinez and Ms. Ileana Ros-Lehtinen, to say a few 
words about Mr. Gonzalez.
    Immigration and Customs Enforcement's mission--ICE--is to 
prevent acts of terrorism by targeting the people, money, and 
materials that support terrorists and criminal activities. This 
is the largest investigative arm of the Department of Homeland 
Security. If confirmed as Assistant Secretary for ICE, Ms. 
Julie Myers would oversee a budget of several billion dollars 
and manage approximately 20,000 employees. She would be 
responsible for coordinating a wide range of enforcement 
efforts, including alien smuggling, financial crimes, and the 
apprehension, detention, and removal of illegal aliens.
    The Senate Homeland Security and Government Affairs 
Committee recently approved the nomination of Ms. Myers to be 
Assistant Secretary. Ms. Myers's nomination is supported by the 
Fraternal Order of Police and by the Federal Law Enforcement 
Officers Association. She also has the support of Senator 
Warner, the former Secretary of the Navy and the current chair 
of the Senate Armed Services Committee, as well as Larry 
Thompson, the former Deputy Attorney General of the United 
States.
    Ms. Myers has served as a senior official within the 
administration for the past 5 years. Her professional 
experience includes both work as a prosecutor and manager over 
several sections within the Department of Treasury's Office of 
Enforcement. As Deputy Assistant Secretary at the Department of 
Treasury, she supervised both the counter-narcotics and 
international money laundering sections of the Department of 
Treasury. She then worked as the Assistant Secretary for Export 
Enforcement at the Department of Commerce, where she oversaw a 
law enforcement agency whose mission is to combat the illegal 
export of sensitive U.S. technology. She has also served as 
chief of staff to Secretary Chertoff when he was at the 
Criminal Division at the Department of Justice.
    As I indicated, I would now like to recognize my colleague, 
Senator Martinez, for any introductory comments he would care 
to make.

PRESENTATION OF EMILIO GONZALEZ, NOMINEE TO BE DIRECTOR OF THE 
 BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF 
 HOMELAND SECURITY, BY HON. MEL MARTINEZ, A U.S. SENATOR FROM 
                      THE STATE OF FLORIDA

    Senator Martinez. Thank you, Mr. Chairman. It is a real 
honor and privilege to be here with you today, and thank you 
for allowing me a few moments to share with you the great honor 
I feel in being here today to introduce my good friend Emilio 
Gonzalez to the Committee. The President has chosen a great 
person to lead our Nation's Citizenship and Immigration 
Services. Emilio Gonzalez will bring a great deal of depth of 
international and domestic policy experience to this position.
    His dedication to our Nation began early in his life when, 
many years ago, as a young man, he enlisted in the military, in 
the United States Army, making the rank of colonel. As the 
Director for Western Hemisphere Affairs for President Bush, he 
served as a key national security advisor and trusted advisor 
to both President Bush and Dr. Condoleezza Rice, who served as 
National Security Advisor at the time. I mention this point out 
of the fact that Mr. Gonzalez, through his hard work, has 
already earned the trust of the President and his key advisors 
and will be able to hit the ground running in this very, very 
important position.
    As an immigrant to this country himself, Mr. Gonzalez and I 
share a common heritage, both of us immigrating here from Cuba 
at early ages. I understand from my own life experience that he 
understands the meaning and the value of a United States 
citizenship, the meaning and the value of what it means to live 
in a society that is free and that is open and, at the same 
time, also understands the national secretary requirements that 
go hand in hand with immigration and citizenship policies. He 
will know how to balance this important responsibility with 
compassion and understanding. Emilio is a man of character and 
competence. He is also a man committed to his faith and to his 
wonderful family that is here with him today.
    We are currently debating and discussing, as the Chair 
pointed out, the very important issue of immigration reform. 
Our country is at a point where we need to address the 
immigration issue in a way that recognizes the economic 
contributions that immigrants are making and have made to this 
country, while at the same time also balancing the very 
important need for strong border enforcement and the 
enforcement of the rule of law.
    I know that Emilio, a colleague during our time in the 
administration and also a friend of mine, will serve our 
country well in this position and I urge my colleagues in the 
Senate to join me in a swift confirmation of Mr. Gonzalez to 
this very important post.
    Thank you.
    Senator Cornyn. Thank you, Senator Martinez.
    Representative Ros-Lehtinen, we will be glad to hear from 
you.

PRESENTATION OF EMILIO GONZALEZ, NOMINEE TO BE DIRECTOR OF THE 
 BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF 
       HOMELAND SECURITY, BY HON. ILEANA ROS-LEHTINEN, A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Representative Ros-Lehtinen. Thank you so much. Thank you, 
Mr. Chairman and thank you to my dear friend, the good doctor. 
I have had the privilege of serving with him in the House. He 
ignored me then, too.
    [Laughter.]
    Representative Ros-Lehtinen. I am so pleased to be here 
today with our wonderful Senator from the State of Florida, Mel 
Martinez, to support a constituent of my Congressional district 
and a dear friend, Dr. Emilio Gonzalez, in his nomination to 
the position of Director of Bureau of U.S. Citizenship and 
Immigration Services at the Department of Homeland Security.
    As you heard from Senator Martinez, throughout his 
professional career Dr. Gonzalez has remained committed to 
protecting and defending our National security. He completed a 
distinguished military career with the rank of colonel, 
spanning nearly three decades in the U.S. Army, and is 
considered one of the most accomplished foreign area officers 
in the Department of Defense. Dr. Gonzalez also served as 
Director of Western Hemisphere Affairs at the National Security 
Council during President George W. Bush's first administration. 
And it is in this capacity that he served as a key national 
security and foreign policy advisor to President Bush and to 
then-National Security Advisor Condoleezza Rice. So clearly, 
Dr. Gonzalez's experience is beyond that of an average nominee.
    His predecessor, the current U.S. Ambassador to Spain 
Eduardo Aguirre, made significant and measurable progress at 
the Agency toward eliminating the immigration backlog, 
improving customer service, and enhancing national security. I 
am certain that Dr. Gonzalez will not only continue in 
Ambassador Aguirre's tradition of excellence but that he will 
propel the Department of Homeland Security to new heights by 
bringing his expertise in foreign affairs, his knowledge of 
international security policy issues, and his unwavering 
professionalism to the position of Director of the Bureau of 
U.S. Citizenship and Immigration Services.
    President Bush has repeatedly demonstrated his commitment 
to nominating outstanding members of the Hispanic community to 
Federal posts and he continues to do so by recommending an 
individual, Emilio Gonzalez, who is so devoted to protecting 
our precious homeland. So it is therefore my honor to join 
President Bush and my friend Senator Martinez in offering my 
utmost support for Dr. Emilio Gonzalez--a gentleman, a scholar, 
and a true patriot. And he is joined here today by his wife, 
Gloria, and his daughters Gigi and Vicki. It is a pleasure to 
have them here.
    Thank you, Emilio.
    Thank you, Senators.
    Senator Cornyn. Thank you very much for those 
introductions. I know members of Congress on both sides of the 
Capitol have a lot of conflicting commitments, so we will be 
glad to excuse you if you will then let us proceed now.
    As our colleagues leave, let me say a few words by way of 
introduction about the third nominee, who has been nominated to 
be Deputy Director for Supply Reduction at the Office of 
National Drug Control Policy, Mr. James O'Gara.
    Mr. O'Gara is the President's nominee to be the Director 
for Supply Reduction for the Office of National Drug Control 
Policy. This position is charged with implementing the 
President's national drug control strategy in the area of 
supply reduction. If confirmed, Mr. O'Gara will focus his 
efforts on disrupting the market for illegal drugs in the 
United States and abroad by working with his counterparts at 
other agencies, including the departments of State, Defense, 
Justice, Homeland Security, and Treasury, as well as the 
Central Intelligence Agency.
    Mr. O'Gara currently serves as Special Assistant to the 
Director of National Drug Control Policy and is responsible for 
advising the Director on matters of intelligence, interdiction, 
and international affairs. For the last 4 years, Mr. O'Gara has 
been the principal drafter of the President's national drug 
control strategy, with responsibility for soliciting input from 
Congress, executive agencies, State and local governments, as 
well as the private sector, in the development of the strategy. 
He is also a former Judiciary staff member for Senator Hatch. 
And we won't hold that against you.
    [Laughter.]
    Senator Cornyn. I know Senator Leahy is going to be here in 
just a moment, the Ranking Member, but I would be happy to 
recognize Senator Coburn if he has any preliminary remarks he 
would care to make.
    Senator Coburn. I don't have an opening statement, Mr. 
Chairman.
    Senator Cornyn. Thank you, Dr. Coburn.
    May I please ask the nominees each to come forward and have 
a seat. And if you will, before you sit down, raise your right 
hand and repeat after me.
    I, James O'Gara, Julie Myers, Emilio Gonzalez, do solemnly 
swear that I will tell the truth, the whole truth, and nothing 
but the truth, so help me God.
    Thank you very much. Please have a seat.
    Mr. O'Gara, you are the first nominee up, and we will be 
glad to hear any opening remarks that you would care to make.

 STATEMENT OF JAMES O'GARA, NOMINEE TO BE DEPUTY DIRECTOR FOR 
    SUPPLY REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. O'Gara. Thank you very much, Chairman Cornyn. Senator 
Coburn. I would like to thank Chairman Specter and Ranking 
Member Leahy for holding this hearing today.
    I would like to thank the President and Director Walters 
for giving me this opportunity to be part of the team that is 
helping to drive down drug use in the United States--17 
percent, over the past 3 years, reductions among 8th, 10th, and 
12th graders. The Office of Drug Control Policy, where I serve, 
is in fact a creation of this very Committee. I would like to 
thank Senator Hatch, whose quick action during the 1990's saved 
the office from elimination, and I would also like to thank 
Senator Biden for his intellectual authorship of the law that 
created the Office in the first place.
    From my time at the Drug Enforcement Administration to the 
Committee staff that you alluded to, to my time at ONDCP, I 
learned that when we push back against the drug problem, we can 
make it smaller. My focus, if confirmed, will be our 
international drug control efforts in Colombia and the Andes, 
in the Transit Zone, in Mexico and Afghanistan.
    Thank you for the opportunity to testify, and I look 
forward to answering your questions.
    [The biographical information of Mr. O'Gara follows.] 

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cornyn. Thank you, Mr. O'Gara.
    Ms. Myers, we will now turn to you for any opening 
statement you care to make.

STATEMENT OF JULIE MYERS, NOMINEE TO BE ASSISTANT SECRETARY FOR 
  IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Myers. Thank you, Mr. Chairman, Senator Coburn. I am 
honored to appear before you today.
    I want to begin by thanking the President for his faith in 
me and for nominating me for this position. I also want to 
thank Secretary Chertoff, with whom I've had the privilege of 
working with in the past and, if confirmed, I would look 
forward to working with again.
    ICE is a tremendous agency. I know this because I have 
worked with the agents first-hand, as an Assistant United 
States Attorney, Deputy Assistant Secretary at the Treasury 
Department, as chief of staff for the Criminal Division, and 
most recently, as Assistant Secretary for Export Enforcement at 
the Commerce Department. I have seen first-hand what ICE can 
do, but there is much more that must be done.
    If confirmed, here is my vision for ICE:
    First, to echo the Secretary's comments this morning, ICE 
must effectively engage in interior enforcement and removal of 
aliens. I hope very much that Congress passes comprehensive 
immigration reform. But if confirmed, I will not wait for that 
to begin enforcing all the laws on the books and streamlining 
our removal processes.
    Second, part of the reason that the Department of Homeland 
Security was created was to connect the dots to ensure that we 
were harnessing all available intelligence. If confirmed, I 
would work to make sure that ICE is using all the intelligence 
data bases that it has, all the information that it has to 
track those who want to harm our country.
    Third, I would work to expand ICE's great work in terms of 
strategic investigations and financial investigations. They 
have done great things there in the Cornerstone Program and 
others, but much more must be done.
    And finally, but very importantly, I would work on Agency-
building to build a new ICE culture. Much must be done in the 
way of building morale, improving infrastructure both financial 
and otherwise to make ICE into the truly great agency it will 
become.
    I thank the Committee for its consideration of my 
nomination, and I will be pleased to answer any questions that 
you have.
    [The biographical information of Ms. Myers follows.]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cornyn. Thank you, Ms. Myers.
    Dr. Gonzalez?

  STATEMENT OF EMILIO GONZALEZ, NOMINEE TO BE DIRECTOR OF THE 
 BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Gonzalez. Thank you, Senator Cornyn.
    I would like to thank Chairman Specter, Ranking Member 
Leahy, and other members of the Committee for allowing me the 
opportunity to appear before you today as you consider the 
President's nomination of me to be the next Director of the 
U.S. Citizenship and Immigration Services. And I also want to 
thank you for affording me such an expeditious hearing date. In 
addition, I would like to thank President Bush and Secretary 
Chertoff for the trust and confidence that they have placed in 
me to lead U.S. CIS.
    I would also like to acknowledge and thank my wife of 27 
years, Gloria, and my daughters Gloria and Victoria, who flew 
up from Florida to be with me today.
    I also want to thank Senator Mel Martinez and Ileana Ros-
Lehtinen for their kind introductions. Both are dear friends 
who have served this great Nation with honor and distinction, 
and their public praise, particularly in this special setting, 
means more to me than they will ever know.
    I am humbled by the opportunity to be here, in part because 
I am a product of the U.S. immigration system. My parents came 
to this country in 1961 fleeing the horrors of Fidel Castro's 
rule in Cuba. Immigration is not new to my family. My 
grandfather left his home in Spain in the early 1900's, so 
therefore I am the third generation of my family to have lived 
in as many countries.
    My parents arrived in Tampa, Florida, with little more than 
the clothes on their backs but with high hopes for a better 
future for their then-7-year-old daughter and 4-year-old son--a 
son who sits before you today. I am and always will be an 
immigrant, an American not by birth but by choice. For me, the 
President's nomination to be Director of U.S. CIS is more than 
just an honor. It is an opportunity to return to a life 
dedicated to public service that began when I was 20 years old 
and commissioned as 2nd lieutenant in the United States Army. 
For almost three decades I served in a variety of roles that 
included troop leader, staff officer, intelligence analyst, 
intelligence collector, instructor, military attache, personnel 
manager, regional specialist and policy advisor. I later served 
on the President's National Security Council.
    Should I be confirmed, I would look forward to bringing my 
leadership skills, understanding of national security, and my 
own personal immigrant experience to bear on the issues that 
lay before U.S. CIS and the Department of Homeland Security.
    For the sake of brevity, I will end it here, Senator, and I 
will submit the remainder of my remarks for the record.
    Senator Cornyn. Without objection.
    [The biographical information of Mr. Gonzalez follows.]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cornyn. Very good. We will proceed now with the 
rounds of questioning, although given the fact that there are 
only two of us here, we will take a little bit of liberty with 
that. As I always tell nominees, the fact that we don't have a 
full phalanx of Senators up here is not necessarily bad news. 
Some might regard it as good news.
    But let me begin first with Ms. Myers, we have heard an 
awful lot of testimony, and you alluded to it in your comments, 
about the expedited removal program, this morning from 
Secretary Chertoff. I was delighted to hear him say that it had 
to end--the catch-and-release program, that is--and that we had 
to make sure that the deterrence effect of expedited removal 
was real.
    So I would like to hear from you. We have gone from roughly 
90 days through the ordinary process down to in the 30's, but 
we still have 20 days just for giving the proper travel 
documentation and other what I would call more bureaucratic 
requirements. Do you have any suggestions for us or any 
thoughts on how we can reduce that time even further to a 
shorter period of time so that the threat of detention and 
removal is a real deterrent?
    Ms. Myers. Thank you, Senator Cornyn, for that question. I 
certainly agree with your sentiment that the threat of 
detention and removal should not be a threat, it should be 
something that we are actually able to enforce. When we detain 
someone, we should be able to remove them at the end of the 
day.
    In terms of cutting down that time period, I think it is 
important to look at the business cycle of removal and look at 
where are there choke points, where are we as the U.S. 
Government, ICE, the Border Patrol, other points, taking too 
long in doing our parts of the job, and where are our other 
partners in the system, such as foreign governments, taking too 
long or taking too many days to respond to certain requests.
    I think that the Department's first look at streamlining 
this has some good potential for progress. One of the things 
that they are doing is looking into video conferencing. Many 
countries require an in-person interview with a consular 
officer before they will issue travel documents. Can we do this 
interview on video conferencing? I am pleased to say that 
Honduras has agreed to video conferencing. That can 
significantly cut down the amount of delay.
    Obviously, video conferencing cannot be it alone. We need 
to look at every single piece, every single place along the way 
and search for improvements there.
    I would like to just add that I don't think expedited 
removal can handle this alone. In instances where we will have 
to release individuals, we should look for alternatives to 
detention that actually work. We should take a look at the 
intensive supervision appearance programs, electronic 
monitoring, or other methods. And finally, we should look at 
what are the incentives and disincentives for people to abscond 
if they are released. I think if we looked comprehensively at 
our bond situation, that might be an area we could improve. If 
people knew that if they absconded they would be removed back 
home very quickly if they were caught, that might be an area we 
could also improve upon.
    Senator Cornyn. Ms. Myers, I know that management 
experience is one important qualification for the position that 
you have been nominated to. You have quite an accomplished 
resume and you have held several high-profile and important 
positions, and it appears you have excelled in all of them.
    Ms. Myers. Thank you, Senator.
    Senator Cornyn. But can you assure the Committee that you 
have the experience necessary to take on a job of this 
magnitude with the responsibility for such a large part of our 
law enforcement efforts at the Department of Homeland Security?
    Ms. Myers. Absolutely, Senator, I can assure you that my 
experience qualifies me for this job. First, in terms of law 
enforcement experience, I have had the opportunity to manage a 
nationwide law enforcement agency--not only any law enforcement 
agency, but one that dealt with sophisticated cases, in fact, 
enforcing a form of border security, our export control laws.
    In addition to my work at the Commerce Department, when I 
served as chief of staff to Secretary Chertoff, I had the 
opportunity there to manage very sophisticated cases and show 
the kind of judgment and skill that is needed in order for 
ICE--
    Hello, there, Ranking Member Leahy. I appreciate hosting 
this Committee on my behalf and on behalf of the other 
nominees.
    While I was serving as chief of staff for Secretary 
Chertoff, I had the ability to manage a large number of 
sections in the Criminal Division and to move the agenda 
forward, and to do this in a short time. I am someone that, 
when put in place, will find out what consensus is, find out 
what the agenda needs to be, and achieve results. I have done 
that at the Commerce Department, at the Justice Department, at 
the Treasury Department, and I was successful as an AUSA. If 
confirmed as Assistant Secretary for ICE, I would do the same 
thing there.
    But management experience alone is not enough. One of the 
additional reasons that I should be confirmed as Assistant 
Secretary is my vision for the Agency, as described previously 
in my opening statement, and I would be happy to answer any 
additional questions you have about that.
    Senator Cornyn. Well, thank you very much. There will be 
some, I am sure, some additional rounds, since 5 minutes goes 
by very quickly. So we will come back for additional--I will 
have additional questions of Mr. O'Gara and Dr. Gonzalez.
    At this time, I will turn to our distinguished Ranking 
Member, Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. It has been a tad 
busy today. We are trying to work out a schedule for another 
major nomination in the next few weeks or months. I was 
thinking of that when I saw your name, Ms. Myers, but your name 
is spelled differently.
    Let me ask you about the Law Enforcement Support Center. I 
am sure you expected that I would ask a question about LESC. It 
started off as a pilot project in one county in Arizona and now 
it fields more than a half million calls annually from law 
enforcement officers around the Nation seeking information 
about the legal status of immigrants. It is manned 7 days a 
week, 24 hours a day. The reason, Mr. Chairman, that I am 
somewhat interested in this, is that it is located in--
    Senator Cornyn. Vermont.
    Senator Leahy. Yes.
    ICE has assigned the LESC to work on the Absconder 
Apprehension Initiative, tracking down the aliens who have been 
ordered to leave the country, but fled instead. Operation 
Predator, focused on alien sex offenders issued 16,000 
detainers last year. The government is trying to cross-link 
LESC with NCIC at the FBI. How do you envision using the LESC?
    Ms. Myers. Thank you, Senator, for that question. I agree 
with you that LESC has really been one of the great successes 
in ICE's short history. As you mentioned, it has answered more 
than 500,000 calls in the past year alone. I think that LESC 
has been effective as serving as a major point of contact, but 
I think we can really expand it working, for example, through 
the new Fugitive Operations Support Center, which is proposed 
and we hope to be fully up and running by the end of calendar 
year 2005.
    If confirmed, I would work to ensure that the LESC, as well 
as the Fugitive Operations Support Center, get all the support 
that they need and are known as a single point of contact to 
State and locals throughout the country. They should know where 
to call, who to contact, and know that they can reach someone 
on the other end of the line.
    Senator Leahy. Thank you.
    Dr. Gonzalez, I look at your record in public service, 
including your 25 years in the military. I am looking for 
expertise in immigration matters. When did you work in the 
White House with the National Security Council?
    Mr. Gonzalez. Sir, that was in 2002 and 2003.
    Senator Leahy. Were you on detail from the Army?
    Mr. Gonzalez. I was, sir.
    Senator Leahy. The Web site of your current employer states 
you were the Director for Western Hemisphere Affairs at the 
National Security Council. What were the responsibilities in 
that position?
    Mr. Gonzalez. Sir, I had the responsibilities for--the way 
we were divided up is geographically and functionally. So I had 
responsibilities for Central America, the Caribbean, and I also 
had functional responsibilities for defense issues and also 
immigration issues, matters such as temporary worker status, 
planned/unplanned migrations, particularly Haiti, Cuba.
    Senator Leahy. Is that the sum of your immigration 
experience?
    Mr. Gonzalez. Sir, my immigration experience--from your 
perspective, that would be it. My immigration experience 
happens to be the fact that I am a product of the U.S. 
immigration system. So not only do I bring my personal story to 
bear on this position should I be confirmed, but also the fact 
that I have 30 years of progressive management experience 
throughout my career. I am not an immigration attorney, no, 
sir.
    Senator Leahy. I was going to say my maternal grandparents 
emigrated here from Italy not speaking any English, but I don't 
consider myself an expert in handling the Immigration Service. 
I will have other questions for you, especially about the St. 
Albans Service Center that I am sure you are aware of, and what 
they have done to reduce backlogs and to make other 
improvements. I hope that you would work closely with them to 
ensure that those improvements continue.
    Mr. Gonzalez. Sir, I can tell you that in all the briefings 
that I have been--I don't want to say ``subjected to,'' but 
that I have had, only the highest comments have been made about 
the service centers in Vermont. And if confirmed, I look 
forward to visiting there.
    Senator Leahy. I will go with you.
    Mr. Gonzalez. Yes, sir. It would be my pleasure.
    Senator Leahy. Thank you.
    Senator Cornyn. Senator Coburn, if you have any questions?
    Senator Coburn. I do. I had some confusion about the 
scheduling that we had arranged. Are we needing to do that or 
not?
    Senator Cornyn. My conflict has not yet arisen, so we will 
play that by ear.
    Senator Coburn. Thank you very much.
    Well, I don't have any questions for Ms. Myers. She came 
before the Homeland Security Committee and I chaired the 
Subcommittee that had that. So I will direct most of my 
questions to Dr. Gonzalez and Mr. O'Gara.
    I am really interested in Plan Colombia and what it has 
really accomplished. It has been a tremendous cost to this 
country. Can you kind of summarize what the American taxpayer 
has gotten for Plan Colombia?
    Mr. O'Gara. Thank you, Senator. I think we have gotten a 
tremendous amount. The Plan Colombia, which has received 
tremendous support from bipartisan majorities in the Congress 
on both sides of the Capitol, has done a number of things in 
Colombia--which I will come back to in a minute--because our 
charge from the President on down has been to focus on the 
narcotics piece.
    In 2001, the last full year before President Uribe took 
office, Colombia produced over 900 metric tons of export 
quality cocaine, mostly destined for export to the U.S. Through 
an aggressive program involving the Department of State, 
obviously the Colombia national police and the military in the 
lead, and the United States Agency for International 
Development, we have been able to reduce that through an 
aggressive eradication program to just over 500 tons. That is 
about a 33 percent reduction in four years.
    Another positive development as a result of Plan Colombia 
has been the ability to finance interdiction efforts off the 
north coast and the Pacific coast of Colombia, which have 
interdicted increasing amount sort of cocaine bound for the 
U.S. Of that 515, roughly, tons available for export last year, 
we seized 248 tons en route to the United States. And that is 
seizures in Colombia, off the coast of Colombia, and in the 
Transit Zone.
    So we have had, I think, tremendous success, and a lot of 
it, frankly, has been the dedication and aggressiveness of the 
Uribe administration, which has really taken this mission very 
seriously.
    Senator Coburn. Is there a balloon effect to the other 
countries that neighbor Colombia, and what are we doing about 
that?
    Mr. O'Gara. Well, that is an excellent question. I mean, 
the balloon effect--and Senator Biden has talked about this at 
length--is something we need to be very mindful of. The balloon 
effect, obviously, being when you push down somewhere, it pops 
up somewhere else. The neighboring cocaine-producer countries 
of Bolivia and Peru produce, respectively, on the order of 100 
and 165 metric tons of cocaine a year. And we've been able to 
keep that relatively stable. I think Peru was down a little bit 
last year, Bolivia was up a little bit. Ninety-nine percent of 
Bolivia's cocaine doesn't come to the U.S. market, and in the 
case of Peru it is only about 16 percent, so we have been able 
to, I think, protect our market from being accessed by those.
    We have to be very careful. We have seen evidence of 
Mexican trafficking groups making inroads into the Peruvian 
market. We need to keep on top of that. But so far, so good.
    Senator Coburn. One followup question. One of my concerns 
is we spend a lot of money in interdiction and stopping the 
flow of drugs, but we don't spend the same amount of money in 
terms of drug treatment programs. One of the ways you stop 
demand for drugs is to get people off drugs, and one of the 
things that I would like to see us doing--I would like to see 
more emphasis placed by the administration, is that we know 
very well-run drug treatment centers free about 65 to 70 
percent of the people for life from their drug addiction. And, 
you know, one of the ways to decrease demand is to do that.
    What are your thoughts on drug treatment as a component of 
decreasing the demand for the product that you are trying to 
destroy?
    Mr. O'Gara. Absolutely. I mean, we see it as a virtual 
circle, where drug treatment reduces the demand and therefore 
the impulse of the American drug consumer to bring the drugs 
into the country, law enforcement can make drug treatment work 
better by referring people to mandatory treatment through drug 
courts, interdiction makes the drug more expensive and makes it 
harder for people to use as much as they want. So we think that 
they all work together. The President's request for fiscal year 
2006 contained--I want to say 23 percent drug treatment. It was 
probably the second-biggest single element of that, including 
the access to recovery initiative, which is $100 million, to 
give access to community, faith-based, and other groups to 
provide drug treatment services.
    But you are absolutely right. Drug treatment is a key 
element of a successful strategy, and one that is balanced.
    Senator Coburn. Mr. Chairman, I will yield back for another 
round, if we have it.
    Senator Cornyn. Mr. O'Gara, let me ask you about the 
connection between illegal drug trafficking and terror. As I 
have looked more and more into human smuggling and that sort of 
organized crime activity that we know occurs south of our 
border but literally internationally, I have been impressed 
with the fact--or should say, maybe, depressed--with the fact 
that, more and more, these organized crime syndicates are 
really just concerned about making money. And they will smuggle 
drugs, they will traffic in people, they will traffic in 
weapons and the like.
    Can you enlighten us any about the connection that you have 
observed between illegal drug trafficking and terror?
    Mr. O'Gara. Mr. Chairman, indeed there is a connection. It 
varies. I think the Department of State identifies 40 listed 
FTOs at this time. Our last scrub identified 12 of them, which 
had some significant role in either producing drugs, guarding 
cultivation, traffic, and so forth. The connection is perhaps 
clearest in Colombia, where you have three foreign terrorist 
organization groups, the ELN, the FARC, and the AUC. All of 
them are heavily involved in the drug trade--cultivating, 
monitoring cultivation and processing, in some cases even off-
continent distribution of those drugs.
    With respect to the FARC, I think the U.S. Government 
supports the efforts of the Colombian Government to target and 
marginalize and take back Colombia. One of the ways we have 
done that--and I don't think anybody really saw this coming--
was, frankly, by hitting them in the pocketbook as aggressively 
as we have. We have cost them hundreds of millions of dollars 
annually in drug revenues. Similar with the AUC and similarly 
with the ELN.
    In terms of other terrorist groups, there have been 
linkages that have been frightening to many. Certainly the al 
Qaeda-affiliated group that perpetrated the Madrid bombings, 
they made their money by selling hashish. So it comes in 
different forms and contexts.
    Senator Cornyn. Thank you. I will have some other questions 
in writing for Ms. Myers and Mr. O'Gara, and I just have a 
couple of questions for Dr. Gonzalez and then I am going to 
turn the gavel over to Senator Coburn.
    Dr. Gonzalez, what steps do you plan to implement, if 
confirmed, that will achieve the President's goal of 6-month 
processing times for all immigration benefit applications?
    Mr. Gonzalez. Thank you for the question, sir.
    The backlog reduction which you are talking about is 
obviously something that is key to everybody that works in U.S. 
CIS. And I think we can safely say that so far the backlog 
reduction has been a good-news story. We are not where we need 
to be, we need to work harder to get to the President's stated 
goal, but at the same time I think that the accomplishments to 
date have been noteworthy. Personnel have already been shifted 
to locations that have the greatest influx of documents, 
resources have been dedicated, new technologies are coming 
online soon, which will help facilitate, create efficiencies.
    But at the same time, sir, as much as everybody wants to 
talk about backlog reduction and everybody wants to achieve 
that as an end state because the 6-month period, I think, is a 
fair and acceptable period, I don't think we want to do that at 
the expense of security. And I think we need to balance good 
customer service, letting an individual, a client who submits 
his paperwork, have a feeling about how long it is going to 
take. And I think that is a fair request of a client.
    But at the same time, there is a national security 
imperative, and I would just as soon come here at a future date 
to have to explain to you why we did not meet a particular 
target because there were Homeland Security imperatives than 
have to come here and explain to you why we naturalized 
somebody that we shouldn't have, or why we adjudicated in a 
positive way somebody that was unworthy of that benefit.
    Senator Cornyn. I appreciate your answer, but you realize 
that Congress is getting ready to make a hard job probably even 
more difficult.
    Mr. Gonzalez. Yes, sir.
    Senator Cornyn. If we take the 10 or 11 million people who 
are currently living here out-of-status, who come here in 
violation of our laws, and if we create some legal mechanism 
for a temporary worker program and have to some way--and I 
don't know exactly how we are going to do it yet--transition 
that population out of the shadows into the mainstream of 
American life, and obviously all without granting amnesty, you 
are going to have a huge challenge, not just dealing with the 
current population that you have to deal with in terms of 
immigration applications, benefit applications, but obviously a 
tremendous challenge in terms of trying to correct what I think 
is a lack of attention that this country, and particularly the 
Federal Government, has historically given to this immigration 
problem, which has now risen to crisis proportions.
    I am not going to ask you for a definitive answer on how 
you are going to do that today, but I will ask you to respond 
to a question I will submit to you in writing that I would like 
to get the benefit of your thoughts in that regard.
    I will turn the gavel now over to Senator Coburn.
    Senator Coburn. (presiding) I just have a couple of 
questions.
    With unanimous consent we will enter into the record a 
statement by Senator Pat Roberts in terms of the support of 
Julie Myers.
    I also would note that the record will be left open for 1 
week for written questions by other members of the Committee or 
other Senators. It will close next Tuesday, the 25th, at 5 p.m.
    Dr. Gonzalez, you were asked a minute ago--or it was 
implied you weren't an attorney. I think that is great. Being a 
physician myself, I like to see something besides attorneys in 
some of our positions.
    Mr. Gonzalez. So do I, sir.
    Senator Coburn. I don't think it is necessarily a deficit. 
And that is not to reflect negatively on attorneys. I love my 
son-in-law.
    What challenges do you see in front of the Bureau of 
Citizenship and Immigration Services in the future? You are 
looking at this. If confirmed, you are going to have to measure 
and assess those challenges. What do you see as those 
challenges, and what are your answers to them?
    Mr. Gonzalez. Sir, in no priority, but some priority, I 
think we just discussed the backlog reduction. I think that is 
a key challenge across the board. But I don't want at least 
people in U.S. CIS at some point to feel that that is what it 
is all about, that we are only here to do backlog reduction and 
we are not here to do other things or we are not concerned with 
other matters.
    Again, the backlog reduction is being addressed. Resources 
and technologies are being dedicated. We hope to get there by 
the end of September of next year. If confirmed, I will be 
tracking that progress regularly just to make sure that we not 
only get there, but we get there the right way. And we don't 
need to sacrifice national security just to be expedient. I 
think we can do both and we should do both, and we should hold 
ourselves to that standard.
    Another would be IT modernization and transformation. Quite 
frankly, from what I have been exposed to, the IT systems at 
U.S. CIS are very, very antiquated. In addition to what the 
Senator just said before he left, if you layer on top of that 
some kind of temporary worker program, I don't think the 
systems--in fact, I know the systems that exist right now 
wouldn't be able to handle it. So as a result, getting the 
right technology, using the very best technology available to 
be able to capture all that information for whatever piece of 
this temporary worker program is allotted to U.S. CIS, I think, 
is important. Again, that is being addressed as we speak, 
although obviously, when you are talking about IT 
modernization, it is a very expensive situation to have to 
undertake. But that having been said, it is a priority for me 
and a concern which I will follow up, if confirmed.
    The other thing I would like to also address is fraud 
detection. U.S. CIS has fraud detection capabilities, and I 
think it is incumbent on all of us as professionals--and again, 
I come from a national security background--I think we should 
service customers that come to us in a dignified and honorable 
way. For many of these people, U.S. CIS is the first real face 
of American bureaucracy that they experience. In fact, most 
people that come to this country are fleeing oppressive 
bureaucracies somewhere else. So I think it is incumbent on us 
to have a very, very professional staff.
    But just like I would require the staff at U.S. CIS to 
handle themselves with decorum and integrity, I think I would 
also require clients to handle themselves the same way, with 
making sure that the documentation that they give is correct; 
if it is not correct, to produce a correct document; if it is a 
fraudulent document, to do what we need to do at that point. 
But again, I want to not just emphasize customer service, but I 
want to emphasize the national security aspect of the mission 
that U.S. CIS has.
    And the other has to do with the temporary worker program. 
Whatever comes down the pike in whatever fashion, shape, form, 
label, whatever we want to call it, if there is a piece--which 
I will be--for U.S. CIS, we need to start preparing for that 
now, as opposed to waiting four, five, six, 7 months from now.
    Senator Coburn. All right, thank you. You might be 
surprised to learn that in 2004 the Federal Government spent 
$66 billion on IT. And we don't have what we should to show for 
it. So I will promise you that you will get to come before the 
Federal Financial Management Committee in terms of how you 
spend your money on IT--which happens to be my Subcommittee--so 
we can make sure that we get our value for what we are spending 
on that.
    Mr. Gonzalez. Yes, sir.
    Senator Coburn. And I think your comments in terms of 
starting to plan now for some type of way on a temporary worker 
program, it is incumbent so that you will be ready when the 
changes--The changes are coming. The Congress is going to do 
it, the American people demand it, it is going to happen. We 
are going to control the border. We are going to repatriate 
those people to their home countries who are here illegally, 
and then we are going to work out something for those positions 
in our country that can't be filled by American workers, the 
opportunity for others to come here and work.
    Mr. Gonzalez. And we would hope to position U.S. CIS to be 
able to undertake whatever missions Congress sets out for us. 
Again, whatever piece of that pie will go to U.S. CIS, we want 
to be ready.
    Senator Cornyn. All right. Thank you.
    I have no additional questions. We have no other members 
here. The record will be left open until Tuesday, the 25th, at 
5 p.m.
    I thank each of our nominees for being before the Committee 
and I look forward to working with you in the future.
    The hearing is adjourned.
    [Whereupon, at 3:19 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
